APPLICATION AND
SOLICITATION
DISCLOSURE
PLATINUM MASTERCARD /PLATINUM WITH REWARDS
MASTERCARD
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Platinum Mastercard

9.25% to 17.75%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Platinum with Rewards Mastercard

10.75% to 17.75% , when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.

APR for Balance Transfers

APR for Cash Advances

Platinum Mastercard
9.25% to 17.75%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Platinum with Rewards Mastercard
10.75% to 17.75% , when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Platinum Mastercard
17.75%
This APR will vary with the market based on the Prime Rate.
Platinum with Rewards Mastercard
17.75%
This APR will vary with the market based on the Prime Rate.

How to Avoid Paying Interest on
Purchases
Minimum Interest Charge
For Credit Card Tips from the
Consumer Financial Protection Bureau
Fees
Annual Fee
- Annual Fee - Platinum with Rewards
Mastercard

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.
If you are charged interest, the charge will be no less than $2.00.
To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

None

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

04220475-MXC10-P-1-013019 (MXC101-E)

Transaction Fees
- Balance Transfer Fee
- Cash Advance Fee
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee
- Returned Payment Fee

$10.00 or 3.00% of the amount of each balance transfer, whichever is
greater
$10.00 or 3.00% of the amount of each cash advance, whichever is greater
(Maximum Fee: $35.00)
1.00% of each transaction in U.S. dollars
Up to $25.00
Up to $25.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)."
Minimum Interest Charge - Platinum Mastercard :
The minimum interest charge will be charged on any dollar amount.
Minimum Interest Charge - Platinum with Rewards Mastercard :
The minimum interest charge will not be charged on amounts below $2.00.
Effective Date:
The information about the costs of the card described in this application is accurate as of: November 1, 2019
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
For California Borrowers, the Platinum Mastercard and Platinum with Rewards Mastercard are secured credit
cards. Credit extended under this credit card account is secured by various personal property and money
including, but not limited to: (a) any goods you purchase with this account, (b) any shares you specifically
pledge as collateral for this account on a separate Pledge of Shares, (c) all shares you have in any individual or
joint account with the Credit Union excluding shares in an Individual Retirement Account or in any other account
that would lose special tax treatment under state or federal law, and (d) collateral securing other loans you have
with the Credit Union excluding dwellings. Notwithstanding the foregoing, you acknowledge and agree that
during any periods when you are a covered borrower under the Military Lending Act your credit card will be
secured by any specific Pledge of Shares you grant us but will not be secured by all shares you have in any
individual or joint account with the Credit Union. For clarity, you will not be deemed a covered borrower if: (i) you
establish your credit card account when you are not a covered borrower; or (ii) you cease to be a covered
borrower.
Other Fees & Disclosures:
Late Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less, if you are 15 or more days late in making a
payment.
Balance Transfer Fee (Finance Charge):
$10.00 or 3.00% of the amount of each balance transfer, whichever is greater.
Cash Advance Fee (Finance Charge):
$10.00 or 3.00% of the amount of each cash advance, whichever is greater, however, the fee will never exceed $35.00.
Returned Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less.
Returned Convenience Check Fee:
$25.00 or the amount of the returned convenience check, whichever is less.

Mastercard and the Mastercard Brand Mark are registered trademarks of Mastercard International Incorporated.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

04220475-MXC10-P-1-013019 (MXC101-E)

